                                        Hold for Release
                                          Until Delivery
                                     Expected 10:00 a.m.
                                          April 16, 1998




                Statement by

              Ms. Eleanor Hill

             Inspector General

           Department of Defense

                 Before the



   Subcommittee on Government Management
         Information and Technology

Committee on Government Reform and Oversight




          House of Representatives

                     on

 Department of Defense Financial Management




               April 16, 1998
Mr. Chairman and Members of the Committee:


     Thank you for the opportunity to discuss with you today

financial management in the Department of Defense, with emphasis on

the Department’s continued efforts to achieve compliance with the

Chief Financial Officers Act and related statutes.   As you know, I

testified before this committee on November 14, 1995, and at that

time outlined the significant impediments hampering the preparation

of auditable annual financial statements by the Department.    There

has been little controversy about what those impediments are.    The

Department has generally agreed with the huge number of audit

findings on the subject.   Its management representation letters,

annual management control assurance statements, and other reports

to the Office of Management and Budget and the Congress have

acknowledged the scope of the problem.



     The Department’s accounting systems and financial reporting

practices mirrored its overall management philosophy during the

1950’s through 1980’s.   Most DoD business processes--acquisition,

inventory management, maintenance, training, and many others--were

decentralized; controlled in theory by elaborately detailed rules

and regulations; developed unilaterally by organizations operating

within their own functional “stovepipe” with insufficient

coordination with other stakeholders; and often labor intensive

despite the use of many thousands of automated systems.   In the

finance and accounting area, each Military Department operated

dozens of systems; data element standardization was never
effectively enforced; DoD accounting policies were enunciated in a

Handbook whose precepts were not mandatory and therefore were

widely ignored; and the primary focus of financial reporting was on

funds control, not on providing the full range of financial data

needed by managers.   In retrospect, it is remarkable how

infrequently the DoD accounting community was asked questions along

the lines of how much does it cost to run a base, fill a

requisition or operate a warehouse.



     With the end of the Cold War and the imposition of severe DoD

budget constraints, the Department and the Congress recognized the

need to reform the entire range of DoD business practices.    For

nearly ten years, the Department has been engaged in reinventing

all of those processes simultaneously. While indeed much has been

accomplished, much remains to be done in all aspects of the

Department’s operations.   Last month I testified, for example,

before a Senate committee that was evaluating the impact of

acquisition reform, about problems in pricing for spare parts, and

opportunities for further acquisition process improvements.



     Nearly all of my office’s audit and evaluation work directly

relates to the Department’s high risk areas and strategic

management reform goals.   Therefore we have an overview of the

relative progress being made in reengineering each DoD functional

area.   Although each of those areas entails tremendous complexity

and many challenges, it is easier to enumerate or quantify progress


                                  2
in most other areas than in finance and accounting.    This is

frustrating to everyone--the Congress, OMB, DoD managers, the

comptrollers, and the auditors.



     My office has issued 181 audit reports on finance and

accounting matters since I last testified before you, and only a

handful have been good news.   Some examples of our recent reports

are summarized at Attachment 1.    The Military Department audit

agencies have also done a substantial part of the CFO audit work

and produced numerous reports.    Although tens of billions of

dollars’ worth of auditor-recommended adjustments are being made

annually to financial statements and hundreds of other audit

recommendations are being accepted, I cannot yet report to you that

the Department has successfully corrected the many shortcomings in

its accounting and financial systems.



     The financial statement data for most DoD funds remain

unreliable and essentially not in condition for audit.    In

accounting terms, the situation still can best be described as a

general lack of effective internal management controls.

Consequently, we and the Service audit organizations were unable to

give audit opinions on the financial statements for either the DoD-

wide consolidated statements or all but one of the major fund

statements for FY 1997.   We are still working on the Military

Retirement Trust Fund statements, which probably will merit an




                                   3
unqualified (clean) opinion and be the only exception to the list

of disclaimers.    A complete listing of the audit opinions is at

Attachment 2 to this statement.



GENERAL FUNDS



     The primary reason for disclaimers of opinion on all DoD

general fund financial statements for FY 1997 has not changed since

the November 15, 1995, testimony; the accounting systems supporting

DoD general funds cannot compile and report accurate and reliable

information.     Accounting systems supporting DoD general funds

continue to lack integrated, double-entry, transaction-driven

general ledgers to compile and report reliable and auditable

information.     The information is not auditable because the

accounting systems cannot produce an audit trail of information

from occurrence of a transaction through its recognition in

accounting records and ultimately to the general fund financial

statements.     Not all information from the audits of the FY 1997

financial statements is available yet, but it is apparent that, as

in previous years, DoD made huge numbers of adjustments, many of

which were unsupported. For example, the DFAS Indianapolis Center

made $350 billion of unsupported adjustments to make the FY 1997

Army General Fund general ledger accounts match the corresponding

status of appropriations data.




                                    4
     Because of the accounting systems’ inadequacies, auditors have

not been able to obtain sufficient evidence or apply other auditing

procedures to satisfy themselves as to the fairness and accuracy of

the data reported on DoD general fund financial statements.     Until

accounting systems with integrated, double-entry, transaction-

driven general ledgers are developed to compile and report

information, auditors will remain largely unable to determine

whether valid transactions are properly recorded, processed, and

summarized.    This is a significant long-standing scope limitation

that will likely continue to cause auditors to disclaim opinions on

the DoD general fund financial statements.   The Department does not

expect to see most of the necessary systems fully in operation

before 2003.



     Since 1995 there have been various other developments

affecting the general funds.   Some are positive and others present

mixed signals.




•   The Defense Property Accountability System (DPAS), which was

    proposed as the answer to unreliable reporting of real and

    personal property, is being fielded, but has fallen short of

    expectations.   Specifically, DPAS only captures about a quarter

    ($182 billion out of $773 billion reported in FY 1996) of real
    and personal property and does not completely address the

    systemic weaknesses it was intended to correct.




                                   5
•   The General Accounting Office and DoD auditors performed

    a coordinated review of DoD mission assets during the

    FY 1997 CFO audit.   Mission assets, more properly referred to as

    National Defense Property, Plant and Equipment, are weapon

    systems and other equipment used in the performance of actual

    military operations.    Examples would be aircraft, ships, trucks

    and jet engines.   The purpose of the joint effort was to test

    mission assets for completeness of reporting and existence of

    assets.   Based on a sampling methodology designed to result in a

    pass/fail conclusion on the categories of the items sampled, the

    Army and Air Force passed, while the Navy failed in three of the

    eleven categories.



•   In FY 1997, the Army Corps of Engineers, with support from the

    Army Audit Agency, attempted to produce auditable Southwest

    Division financial statements because the Corps had completed

    development and implementation of its new accounting system, the

    Corps of Engineers Financial Management System (CEFMS), within

    that Division.   This effort proved successful, as the auditors

    gave an unqualified opinion on the FY 1997 Southwest Division

    financial statements.   The Army is completing deployment of

    CEFMS throughout the remainder of the Corps and is anticipating

    a possible favorable opinion on the FY 1999 financial statements

    for the Corps of Engineers, Civil Works Program.




                                    6
•   With extensive modifications, CEFMS serves as the basis for the

    Defense Joint Accounting System (DJAS).   Recently the plan for

    DoD-wide use of DJAS has undergone major revision, however, and

    it is now unclear how many DoD organizations will ever use the

    common system.




•   The Air Force, with support from the Air Force Audit Agency,

    attempted to produce an auditable Statement of Budgetary

    Resources for FY 1997.   Although work continues on the statement

    and many challenges remain, the lessons learned from this

    commendable effort will provide a baseline for a potentially

    favorable audit opinion on the FY 1998 Air Force Statement of

    Budgetary Resources and for the other Services to apply in

    attempting to produce auditable FY 1998 Statements of Budgetary

    Resources.



•   Two years ago, we participated in a joint effort led by the

    Under Secretary of Defense (Comptroller) and Principal Deputy

    Under Secretary of Defense (Acquisition and Technology) to deal

    with the long-standing problems related to control of

    Government-owned property in the possession of contractors.

    Those problems fall under two categories, accounting for the

    property and reengineering the related business practices--

    acquisition, inventory control, reutilization and disposal.    In

    brief, one of the reasons for disclaimers of opinion on various


                                   7
    general fund and working capital fund financial statements is

    the lack of any reliable data on the depreciated value of an

    estimated $90 billion (acquisition value) of military property,

    material, tools and equipment, as well as real property in the

    hands of contractors.   It was agreed that the appropriate

    accounting treatment for this property would be identified and

    the necessary instructions provided to the owning activities or

    DoD property administrators.    Unfortunately, no progress has

    been made.   Similarly, the acquisition community initiated

    procurement rule changes to change the practice of the

    Government automatically taking title to property, whether or

    not there was any reasonable chance of reutilization, but that

    effort has also bogged down.



•   One of the benefits of financial statements is disclosure of

    liabilities.   Such information should have practical

    applications for DoD program/budget planning.       Initially, there

    were great concerns over criteria and methodology for estimating

    and reporting liabilities.    Progress is being made, although

    this remains a difficult area.       For example, the DoD-wide

    statements need to reflect liabilities related to military

    retirement health benefits.    The estimate in FY 1997 was for

    $218 billion, which is a 100-year projection.       This projection

    is questionable because it was based on an inadequate sample




                                     8
    (data from only 15 of 121 DoD treatment facilities) and the

    1992-1994 data used for the projection were not updated, and

    used unaudited budget information.



•   Another example concerns environmental costs.    The reporting of

    estimated environmental cleanup liability is becoming more

    accurate, increasing from $17.9 billion for FY 1996 to

    $38.3 billion for FY 1997.   Liabilities for disposal of

    hazardous waste and remediation of environmental contamination

    for FY 1997 remained materially understated, as a whole,

    primarily because an estimate for the associated liability had

    not been developed for major weapon systems such as aircraft,

    missiles, ships and submarines, as well as ammunition.     DoD had

    not implemented the accounting standards that require

    recognizing and reporting environmental costs associated with

    weapon systems, nor had DoD provided guidance to the Services.

    This is an example of where the DoD management reform goals in

    other areas ought to dovetail with the effort to produce

    accurate financial statements, but the linkage is not evident to

    most DoD managers.   In this case, DoD managers are supposed to

    be putting heavy emphasis on identifying and reducing the life

    cycle cost of weapon systems and the cost of logistics

    operations, including disposal.    Estimating environmental

    cleanup liabilities should be an integral part of life cycle

    cost estimating.   There is a very practical imperative at work

    here, not just an arcane accounting requirement.


                                   9
DEFENSE BUSINESS OPERATIONS FUND/WORKING CAPITAL FUNDS



     One of the most touted DoD management initiatives of the

1990’s was consolidating all industrial funds and stock funds into

the Defense Business Operations Fund, which became the primary

vehicle for financing DoD support activities such as supply,

maintenance, transportation, finance, and information processing.

This experiment in centralized cash management proved unsuccessful.

In December 1996, the Under Secretary of Defense (Comptroller)

announced that the Fund would be broken up and replaced with

several Working Capital Funds.    The 13 business areas under the

Defense Business Operations Fund were restructured under the

Military Services and the Defense agencies.    This restructuring did

not affect the financial reporting deficiencies that caused

disclaimers of audit opinions on Defense Business Operations Fund

financial statements for FY 1992 through FY 1996.    Those problems

include accounting system deficiencies, poor audit trails,

unsupported and unverified transactions, and difficulty in

determining property ownership.



     For example, adjustments made to the Air Force, Transportation

Command, and Joint Logistics Systems Center working capital funds

by the DFAS Denver Center were not adequately supported.    In

FY 1996, the Denver Center made 124 adjustments for $227 billion,

of which 111 adjustments for $217 billion were not supported.    The


                                  10
last nine adjustments made for FY 1996, which were not supported,

changed the Air Force results of operations from a loss of

$11 billion to a gain of $2.2 billion.   For FY 1997, the Denver

Center made 129 adjustments for $161 billion.    We have not

completed our review of the FY 1997 adjustments and cannot state at

this time the number of adjustments that were adequately supported.

We have noticed an improvement in the amount of documentation

provided, but we are concerned with the number and types of

adjustments that are made because of deficiencies in the accounting

systems used.   If DFAS had adequate accounting systems, many of the

adjustments would be unnecessary.



     The Department has developed a long-term plan to reduce the

number of accounting systems from 82 to 15 that support the working

capital funds and to correct the deficiencies in the systems

selected for retention.   Although some progress has been made in

eliminating systems, few working capital fund accounting systems

have implemented the U.S. standard general ledger, and no systems

are fully compliant with Federal financial management system

requirements and Federal accounting standards.    Significant control

weaknesses continue to affect the accurate reporting of inventory

accounts in several working capital fund business areas.    Since

inventory is the primary asset reported on the working capital fund

financial statements, these weaknesses will affect the fair

presentation of both the individual working capital fund and DoD-




                                 11
wide financial statements and prevent favorable audit opinions.    We

believe the most serious problems in accounting systems will remain

unresolved for some time.



     Financial reporting for the working capital funds should be

geared to management’s needs.   Most of the operations financed by

these funds fall under the purview of the supply, maintenance,

transportation, communications and information processing

communities and much of the data feeding the financial systems come

from non-financial systems, especially logistics systems.   This

makes close cooperation among the “owners” of the financial systems

and the feeder systems absolutely vital in terms of improving DoD

financial reporting and designing more useful, reliable and capable

systems for the future.   While there is repeated acknowledgment of

the need for such cooperation, we believe that the commitment of

DoD managers to the goal of CFO Act compliance is, especially

outside the finance and accounting community, very tenuous.

Signals such as the previously mentioned inability to get all major

DoD organizations to use the supposedly joint Defense Property

Accountability System are disquieting.   The recent consolidation of

accounting system development efforts into a single Defense

Financial and Accounting Service project office was a prudent

decision, although we believe that closer Office of the Secretary

of Defense level oversight of these systems development efforts is

crucial.




                                 12
     We have been disappointed that the DoD Senior Financial

Management Oversight Council, which was described as the capstone

of the DoD financial management reform organizational structure in

the Chief Financial Officer’s Five Year Plan, has not met in over a

year and has not discussed compliance with the CFO Act in four

years.   Although CFO Act issues are frequently discussed among

leaders of the DoD finance and accounting organizations, the

leaders of many non-finance functional areas do not appear to be

actively engaged.   This is not completely unexpected, in light of

the sheer number of management challenges facing the Department and

the resultant conflicting priorities.



AUDITING FINANCE AND ACCOUNTING OPERATIONS



     Although there is widespread skepticism in the DoD concerning

the value of financial statements themselves, the certainty of the

annual financial audit has contributed to increased attention to

problems that may not in all cases be material to DoD financial

statements, but are important in achieving sound financial

management.   Such problems include disbursements that cannot be

matched to original obligations, untimely purging of invalid

obligations, overpayments to contractors, lack of attention to

maintaining appropriation integrity when making progress payments,

the Year 2000 computing problem, and vulnerability to computer

tampering and fraud.




                                 13
     Unfortunately, financial statement audits are not necessarily

the most efficient audit approach to identifying the scope and

causes of such problems.   For truly effective oversight, the

financial statement audits required under the CFO Act need to be

augmented with a robust annual program of operational audits of

finance operations.   Due to the combination of the downsizing of my

office (58 percent of non-CFO audit teams must be eliminated by

2002 under current plans), the high demand for audit support in

other DoD high risk areas, and the highly labor intensive nature of

financial statement audits for huge funds with many assets, our

overall coverage in the finance and accounting area is bordering on

inadequate.   For example, the Defense Commissary Agency is the

tenth largest food retailer in the United States in sales.   We

audited the FY 1997 Financial Statements with a team of four

auditors, which was feasible only because the underlying systems

and controls were in such a state that no more than limited audit

tests were considered necessary.



     We have earmarked 20 audit teams to CFO Act work, which is a

major commitment in light of all other priorities.   By 2002, those

20 teams will be a full one-third of our entire audit staff.

Although the DoD audit community is proud of its strong commitment

to meeting the CFO audit challenge, we feel that we are losing

ground in terms of having the resources to get the job done.    Over

the past several years, our audit reports on such matters as the

“M” accounts, problem disbursements, and DoD compliance with budget


                                   14
authorization and appropriation act mandates have been widely used

by DoD managers and Congress.    By FY 1998, we are already unable to

offer as much insight into such matters as we did previously, and

this trend will become even more marked if our downsizing

continues.



      It is perhaps not well understood that CFO Act audit

requirements are increasing for a variety of reasons:



•   First, the Government Management Reform Act expanded the

    mandatory audit requirements to cover all DoD funds.



•   Second, guidance from the Federal Accounting Standards Advisory

    Board and OMB increased the number of statements to be provided

    for each fund from 3 to 8.   This will create various new

    reconciliation challenges for both the preparers and auditors of

    these statements.



•   Third, under current plans, the number of DoD reporting entities

    (funds for which financial statements, management representation

    letters, and legal representation letters are prepared) has

    grown from 11 in 1995 to 20 in 1998.   We have recently advised

    the Under Secretary of Defense (Comptroller) that it is

    impossible to execute a plan for separate audit opinions for so

    many reporting entities, given our resource constraints.    In



                                   15
    addition, we need to put top audit priority on focusing on those

    major areas that most materially affect the DoD-wide

    consolidated statements and the Government-wide statements.   We

    have proposed a more practical approach involving separate audit

    opinions for 13 reporting entities.



•   Fourth, concerns regarding the security of automated financial

    systems have become much more prominent as the DoD has

    identified the broad overall threat posed to all of its systems

    by computer hackers.   According to estimates from the Defense

    Information Systems Agency, DoD systems are attacked

    approximately 250,000 times per year.



•   Fifth, the ability of both the finance and accounting automated

    systems and the other systems with which they exchange data to

    compute accurately after January 1, 2000, is a serious concern.

    Across the board, the DoD audit community now has about 150

    auditors working on the “Y2K” problem, and this commitment is

    likely to grow.



•   As DoD funds reach the point where clean audit opinions are

    within reach, the scope and intensity of transaction testing by

    the auditors may increase.   At the present time, audit scope is

    limited in many cases because of the state of the records.




                                   16
NEED TO SIMPLIFY ACCOUNTING



       Another frustration that is widely evident in the DoD at the

present time concerns the excessive complexity of DoD accounting.

It is ironic that there is strong support for streamlining

organizations, regulations and processes, yet there is dogged

resistance to the concept of simplifying our accounting.



       The Department is moving forward in reducing the number of

accounting systems, which stood at 324 in 1991 and is down to 122

now.    The goal is 23 by FY 2003.    Whether we have hundreds of

systems or just a few, however, there will still be tremendous

complexity, workload, and vulnerability to errors unless we also

reengineer the accounting structure itself.



       The Department’s accounting methods were designed decades ago

to maintain the integrity of each of the tens of thousands of

accounts maintained by the DoD in what is undoubtedly the most

complicated chart of accounts in the world.      This multiplicity of

“colors of money” is a root cause of the formidable DoD problems

with the accuracy of accounting data, the complexity of our

contracts, the difficulty of properly managing disbursements and

progress payments, the high overhead costs of DoD budget and

accounting operations, and the considerable restrictions on the

flexibility of managers to shift funds quickly to meet

contingencies.    Millions of documents must contain at least one,


                                     17
and in some cases, many accounting classification codes that

typically have from 46 to 55 characters each.    Compare 16

characters used for a commercial credit card to a typical Navy fund

cite:



       17x1611 1936 026 54002 3 068572 ID 000151 000560852000



We believe that the DoD and Congress ought to reconsider the need

for so many discrete appropriations and subaccounts.    These kinds

of issues are seldom considered in the context of management

reform, but we believe that any streamlining of DoD financial

management requirements would considerably assist managers in

cutting overhead costs throughout the Department.



SUMMARY



       During my previous testimony, I recounted that as long as 213

years ago, the Congress and the military establishment had been

debating the need for adequate audit trails for military

expenditures.    Unfortunately, we are now going on 217 years and the

Department still cannot provide you an acceptable accounting of

expenditures. The DoD audit community is very much aware of the

explicit mandates on this subject and we will continue to do all we

can to move the Department forward to full compliance with the CFO

Act.




                                  18
       EXAMPLES OF FY 1998 OFFICE OF INSPECTOR GENERAL, DOD,
                 REPORTS ON FINANCE AND ACCOUNTING


Report No. 98-075, Distribution Depot Revenues, February 13, 1998.

The Distribution Depot business area was not reimbursed for all

transportation and container consolidation point services.

Customers were only billed $126 million of the $275 million of

costs incurred.   As a result, the Distribution Depot business area

lost approximately $150 million in FY 1996, and the lack of full

reimbursement was not disclosed in the FY 1996 financial

statements.   Also, the Distribution Depot business area continued

to provide services to customers in advance of, or in excess of the

amount of, funded orders.    Cumulative unfunded services ranged from

$1 million to $75.4 million per month during the 15-month period

ended December 31, 1996.    As a result, the Distribution Depot

business area experienced cumulative cash disbursements that

exceeded cumulative cash collections by as much as $181.4 million

during FY 1996.   Cash shortages had to be covered by other Defense

Business Operations Fund (DBOF) sources.    These kinds of problems

cause pricing distortions and complicate budget planning.


Report No. 98-072, Defense Business Operations Fund Inventory

Record Accuracy, February 12, 1998.    The audit assessed the

accuracy of the perpetual inventory records for on-hand inventory

maintained by the DoD inventory control points and retail storage

activities.   The audit was limited because DoD management had not

developed and executed a DBOF-wide sample; we developed a sample to

test inventory record accuracy.


                                   1
                                                         Attachment 1
The inventory records were not accurate.   An estimated 15.8 percent,

or about one of every six inventory records represented by our

sampling, were wrong.   The errors caused individual inventory

records to be misstated (overstated and understated) by an estimated

$3.9 billion.   The net misstatement resulting from those errors was

an estimated $336.3 million understatement of the $89 billion of

on-hand inventory reflected in the FY 1996 financial statements.

The inaccurate records greatly limited the reliability of the

financial data.   Inaccurate inventory records also distorted the

reports used by inventory managers who made decisions to buy

materiel.   Additionally, inaccurate records can reduce the

effectiveness of logistics support when military customers urgently

need inventory.


The DoD inventory control points and retail storage activities did

not implement a plan to conduct an annual statistical sample of the

FY 1996 Defense Business Operations Fund inventory, as required by

DoD policy.


Report No. 98-060, Joint Logistics Systems Center Reporting of

System Development Costs, February 3, 1998.   The Center did not

transfer about $1.54 billion of systems development costs, incurred

through the end of FY 1996, to the depot maintenance and supply

management organizations responsible for capitalizing and reporting

these costs on the financial statements.   Additionally, the

$1.54 billion and another $460 million in development costs to be

incurred through FY 1998 will be improperly charged, through the

                                  2
                                                        Attachment 1
recovery of depreciation costs, to customers of the depot

maintenance and supply management business areas of the DoD Working

Capital Funds.   As a result, the Center's FY 1996 financial

statements were materially overstated, and unless the systems

development costs are properly transferred to the appropriate

organizations, the financial statements for FY 1997 and beyond will

continue to be overstated.   Conversely, the financial statements of

the organizations that receive the capital assets (that is, systems

developments) will be understated.     Also, unless the depreciation

costs of the Center's systems developments are recorded as unfunded

costs, customers of the DoD Working Capital Fund organizations that

received the systems developments will have to pay again for nearly

$2 billion in development costs.


Report No. 98-057, Defense Finance and Accounting Service

Acquisition Program for the Electronic Document Management Program.

January 27, 1998.   The Defense Finance and Accounting Service

(DFAS) Electronic Document Management Program will standardize

document distribution, tracking, and storage.     The Program is

expected to improve processing time, reporting accuracy and

customer service, resulting in reduced personnel costs.     This audit

report is one of a series on the DoD acquisition strategy for the

DFAS Electronic Document Management Program and provides the

results of our review of the Increment 1, Vendor Pay, life-cycle

documentation.   The Director, DFAS, requested that we review the

implementation of the Program through the integrated product team



                                   3
                                                          Attachment 1
process and provide input during the acquisition process.


The audit indicated that the integrated product team appropriately

identified cost, funding, and testing concerns that needed to be

resolved before a deployment decision could be recommended.    The

Program Office provided a cost reconciliation document, funding

information, and a schedule for testing to minimize the concerns of

the integrated product teams.   Management incorporated several

auditor suggestions into the program plan.   DFAS developed the

required life-cycle documentation and subsequently received a

Milestone III deployment decision, for Increment 1, Vendor Pay, on

December 16, 1997.


Report No. 98-050, Defense Business Operations Fund Adjustments at

the Defense Finance and Accounting Service, Denver Center,

January 20, 1998.    The DFAS Denver Center did not have adequate

supporting documentation, in accordance with DoD 7000.14-R DoD

Financial Management Regulation, for 111 adjustments totaling

$217.5 billion made to the Air Force, U.S. Transportation Command,

and Joint Logistics Systems Center FY 1996 DBOF account balances.

The last nine adjustments made without supporting documentation

brought the Air Force DBOF Results of Operations from a loss of

$11 billion to a gain of $2.2 billion, and the lack of audit trails

contributed to the disclaimed audit opinion for the FY 1996 DBOF

financial statements.    In many instances, adjustments were made to

the same accounts because the adjustments were recorded

incorrectly,

                                   4
                                                          Attachment 1
reversed, reestablished, decreased, or increased.    However, we

could not determine the validity of the adjustments because of the

lack of supporting documentation.


Report 98-031, The DoD Contract Fund Reconciliation Process,

December 5, 1997.    Contract fund reconciliation is the process of

matching obligation and disbursement data in contracting,

disbursing, and accounting and finance systems to the

specifications in the contract document.    All DoD contracts

eventually require contract fund reconciliation.    Many contracts

require reconciliation only at contract close-out.    However, the

large and complicated contracts for major weapon systems are

frequently out of balance during their life cycle and require

immediate reconciliation.    During FY 1996, the DFAS Columbus Center

and the Military Departments identified 9,652 contracts that were

out of balance by a total of more than $1 billion.    The audit found

inefficient processes that were unnecessarily costly, time

consuming, and ineffective in terms of facilitating accurate

reporting, prompt payment and timely contract close-out.


Specifically, the Military Departments and DFAS did not routinely

distribute the results of contract reconciliations, so much of the

work was wasted.    The inability to keep contracts in balance

contributed to the Military Departments' need to obligate current-

year funds to cover unmatched disbursements and negative

unliquidated obligations that were more than 180 days old.



                                    5
                                                         Attachment 1
The DoD organizations did not use standardized methods to perform

contract reconciliation.   Also, automated reconciliation systems in

use and under development lacked a standardized output.    As a

result, contract fund reconciliations were not readily accepted or

exchanged by the various DoD Components that performed them,

resulting in duplication of reconciliation efforts.    In FY 1996,

278 contracts were reconciled concurrently.    Last, DFAS Columbus

Center did not ensure that Defense agencies with Army Fiscal

Station numbers received copies of internal adjustments.    As a

result, contracts at those Defense agencies required extensive

reconciliations.


Report No. 98-002, A Status Report on the Major Accounting and

Management Control Deficiencies in the Defense Business Operations

Fund for FY 1996, October 3, 1997.     The FY 1996 Defense Business

Operations Fund financial statements identified assets of

$92.2 billion, liabilities of $18.4 billion, and revenues of

$73.7 billion.


We identified significant accounting and management control

deficiencies in the Defense Business Operations Fund that prevented

the timely development and reliable presentation of the financial

statements.   The deficiencies were:


-    Interim Migratory Accounting Strategy;

-    cash management;

-    standard general ledger;


                                  6
                                                          Attachment 1
-    documentation and audit trails;

-    property, plant, and equipment;

-    valuation and reporting of inventory; and

-    personnel.


The problems that were identified affected approximately

67.8 percent of total assets and 16.6 percent of total revenues.

The deficiencies resulted in auditor recommended adjustments of

$75.1 billion to the FY 1996 financial statements and the

supporting accounting records.   Many of the deficiencies noted in

last year's report remain uncorrected, as candidly acknowledged by

the Under Secretary of Defense (Comptroller) in his Management

Representation Letter.




                                  7
                                                        Attachment 1
                      FY 1997 CFO Audit Opinions

                                                    Audit
                  Report Title                  Organization     Opinion

Disclaimer of Opinion on the Department of        OIG, DoD      Disclaimer
Defense Consolidated Financial Statements
for FY 1997

Army’s Principal Financial Statements for        Army Audit     Disclaimer
Fiscal Years 1997 and 1996                         Agency

Army Working Capital Fund Principal              Army Audit     Disclaimer
Financial Statements for FY 1997                   Agency

FY 97 Financial Statements Opinion Report        Army Audit     Disclaimer
U.S. Army Corps of Engineers, Civil Works1         Agency

Department of the Navy Principal Statements      Naval Audit    Disclaimer
for Fiscal Years 1997 and 1996: Report on          Service
Auditor’s Opinion

Independent Auditor’s Opinion on the             Naval Audit    Disclaimer
Statement of Financial Position of the             Service
FY 1997 Department of the Navy Working
Capital Fund Consolidated Financial
Statements

Report of Audit, Opinion on Fiscal Year 1997      Air Force     Disclaimer
Air Force Consolidated Financial Statements     Audit Agency

Report of Audit, Opinion on Fiscal Year 1997      Air Force     Disclaimer
Air Force Working Capital Fund Financial        Audit Agency
Statements

Audit Opinion on the Defense Logistics            OIG, DoD      Disclaimer
Agency Working Capital Fund Financial
Statements for FY 1997

Disclaimer of Opinion on the Defense              OIG, DoD      Disclaimer
Information Systems Agency Defense-Wide
Working Capital Fund Financial Statements
for FY 1997

Disclaimer of Opinion on the Defense Finance      OIG, DoD      Disclaimer
and Accounting Service Working Capital Fund
Financial Statements for FY 1997

      1
          Southwest Division statements received an unqualified opinion.

                                      1
                                                          Attachment 2
Disclaimer of Opinion on the Defense           OIG, DoD    Disclaimer
Commissary Agency Financial Statements for
FY 1997

Audit Opinion on the Military Retirement       OIG, DoD    In Process
Trust Fund Financial Statements for FYs 1997
and 1996

Disclaimer of Opinion on the National          OIG, DoD    Disclaimer
Defense Stockpile Transaction Fund Financial
Statements for FY 1997

Disclaimer of Opinion on the Defense           OIG, DoD    Disclaimer
Security Assistance Agency Financial
Statements for FY 1997

Disclaimer of Opinion on the Joint Logistics   OIG, DoD    Disclaimer
Systems Center Working Capital Fund
Financial Statements for FY 1997




                                   2
                                                      Attachment 2
